'''V

No.

Ibupreme Court of tfie Slmteli States
EDWIN ARTIS PETTAWAY,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent

ON PETITION FORA WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
CERTIFICATE OF FILING
AND SERVICE
I, Edwin Artis Pettaway, being first duly sworn according to law, depose and say that the
required number of the following documents:
1.)

Petition for Writ of Certiorari to the United States Court of Appeals for the
Eleventh Circuit;

2.)

Motion for Leave to Proceed in Forma Pauperis;

were this day filed with this Court and served on counsel for the United States on this same date,
by depositing the required number of originals and copies of the documents into the prison legal
mail collection box, in sealed envelopes, first class United States postage prepaid and addressed

to: Supreme Court of the United States, Office of the Clerk, 1 First Street N.E.,
Washington, DC 20543, and United States Attorney, For The Northern District of Alabama,
1801 4th Avenue North, Birmingham, AL 35203-2101, (205-244-2001) (counsel for
respondent) and Solicitor General, Department of Justice, Washington, DC 20530 (Phone:
202-514-2217) (counsel for respondent).
1 further state that I am incarcerated in the federal prison at Forrest City, AR 72336, and
am filing the documents pro se.
Signed under penalty of perjury
under 28 U.S.C. ยง 1746, this__
_, 2021.
day of
EDWIN ARTIS PETTAWAY
36222-001
P.O. Box 9000
Forrest City, AR 72336

